<html>
<title> - VACANT FEDERAL PROPERTIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
                       VACANT FEDERAL PROPERTIES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    TRANSPORTATION AND PUBLIC ASSETS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2016

                               __________

                           Serial No. 114-116

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 
 




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                      
                      
                             ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 23-485 PDF              WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                        
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
THOMAS MASSIE, Kentucky              BRENDA L. LAWRENCE, Michigan
MARK MEADOWS, North Carolina         TED LIEU, California
RON DeSANTIS, Florida                BONNIE WATSON COLEMAN, New Jersey
MICK, MULVANEY, South Carolina       STACEY E. PLASKETT, Virgin Islands
KEN BUCK, Colorado                   MARK DeSAULNIER, California
MARK WALKER, North Carolina          BRENDAN F. BOYLE, Pennsylvania
ROD BLUM, Massachusetts              PETER WELCH, Vermont
JODY B. HICE, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
STEVE RUSSELL, Oklahoma
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
                         Michael Ding, Counsel
                           Willie Marx, Clerk

                                 ------                                

             Subcommittee on Transportation & Public Assets

                     JOHN L. MICA Florida, Chairman
MICHAEL R. TURNER, Ohio              TAMMY DUCKWORTH, Illinois, Ranking 
JOHN J. DUNCAN, JR. Tennessee            Member
JUSTIN AMASH, Michigan               BONNIE WATSON COLEMAN, New Jersey
THOMAS MASSIE, Kentucky              MARK DeSAULNIER, California
GLENN GROTHMAN, Wisconsin, Vice      BRENDAN F. BOYLE, Pennsylvania
    Chair
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 23, 2016...............................     1

                               WITNESSES

The Hon. David Mader, Controller, Office of Management and Budget
    Oral Statement...............................................     6
    Written Statement............................................     9
Mr. David Wise, Director of Physical Infrastructure, Government 
  Accountability Office
    Oral Statement...............................................    13
    Written Statement............................................    15
Mr. Michael Gelber, Deputy Commissioner, Public buildings 
  Service, General Services Administration
    Oral Statement...............................................    31
    Written Statement............................................    33
The Hon. Gregory Parham, Assistant Secretary for Administration, 
  U.S. Department of Agriculture
    Oral Statement...............................................    37
    Written Statement............................................    40

                                APPENDIX

Written Statement from Ranking Member Duckworth, Entered by 
  Chairman Mica..................................................    62
Proposed Legislation by Representative Jeff Denham, Entered by 
  Representative Glenn Grothman..................................    64


                       VACANT FEDERAL PROPERTIES

                              ----------                              


                       Friday, September 23, 2016

                  House of Representatives,
  Subcommittee on Transportation and Public Assets,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:17 a.m., in 
Room 2154, Rayburn House Office Building, Hon. John L. Mica 
[chairman of the subcommittee] presiding.
    Present: Representatives Mica, Massie, Grothman, and 
DeSaulnier.
    Mr. Mica. Good morning. Thank you for being with us.
    I call the hearing of the Committee on Oversight and 
Government Reform Subcommittee on Transportation and Public 
Assets hearing to order this morning. I'm Congressman John 
Mica. I'm pleased to welcome you.
    And, without objection, the chair is authorized to declare 
a recess at any time.
    We'll of course let you know that the House did adjourn 
last night, so we have a limited number of members. But I 
chose, rather than to delay the hearing, to go forward, and I 
think we can have a very constructive exchange with the 
witnesses that are here and the members that will be able to 
attend. Some will come and go because there are other hearings 
scheduled today, even with the House in recess.
    I want to also state that the order of business will be 
opening statements from members, I will start with mine, we'll 
recognize someone from the ranking side, and other members. 
We'll also leave the record open for 5 legislative days for any 
member who'd like to submit a written statement. And we'll also 
have the opportunity to submit to witnesses questions, which 
will be made part of the record.
    The additional order of business will be then hearing from 
all of our four witnesses, and after we've heard from our 
witnesses we will go to questioning. So that's the order in 
which we'll proceed today.
    And, again, I welcome everyone.
    The title of today's hearing deals with ``Vacant Federal 
Properties,'' and that's been the subject of a lot of my 
interest since coming to Congress. I'm a former smaller-time 
real estate developer in business. And when I came to 
Washington, I saw the opportunity to work with the Federal 
Government and its various agencies, because the Federal 
Government and the American public are actually the largest 
property owners of anyone in the world. And part of our basic 
tenets as Americans is private property ownership, and, as a 
government, we have to be good custodians of the property and 
assets that we hold in trust.
    The purpose of today's hearing, of course, is that we still 
have, even with some past efforts, a huge inventory of 
property, Federal property. Some of it we don't even know the 
complete inventory. And we have thousands of buildings, not 
under GSA--and we'll hear from them and also USDA today--but we 
have many, many agencies--DOD, post office. We have countless 
numbers of vacant Federal properties or underutilized 
properties and buildings.
    It's estimated that the inventory of some 270,000 buildings 
had total operating costs exceeding $18.7 billion. And agencies 
reported an inventory of over 7,000 underutilized buildings and 
properties. I think that's, though, just the tip of the 
iceberg; it's even further than that.
    About 6 years ago now, I helped produce a report looking at 
this issue, and the title of the report is the Federal 
Government must stop sitting on its assets, or ``Sitting on Our 
Assets: The Federal Government's Misuse of Taxpayer-Owned 
Assets.'' And, in the report, which I helped to publish as the 
ranking member of the Transportation Committee--and they have 
authority over some of the public assets and buildings--we 
actually highlighted a number of properties that were vacant. 
We'll talk a little bit about some of those.
    In that capacity, I also held a number of hearings, along 
with Mr. Denham. And he helped me, as the chairman of the 
Subcommittee on Public Buildings--Economic Development, Public 
Buildings, and Emergency Management was the title. And we held 
hearings in different locations to highlight, again, some of 
the issues that we faced with specific properties.
    On the 25th of April, 2013, I held a hearing as the 
chairman of the Government Operations Subcommittee of this full 
committee, and we held that down the street in an empty 
warehouse located at 49 L Street, Southeast, in Washington, 
D.C. There's a picture of that on the screen.
    At that hearing, the GSA official who testified is Mr. 
Gelber, who is here again today, and he told the committee, 
from his testimony, ``Given the high real estate value and rate 
of growth of the surrounding Capitol Riverfront neighborhood, 
the 49 L Street property presents us with many potential 
opportunities to find a better use.'' That's his quote at that 
hearing.
    Unfortunately, I'm disappointed to say that GSA did not 
declare the property excess until 2015, and, unfortunately, the 
warehouse, we found, is still vacant to this day. So, while 
we've made some progress, that's not one of our stellular 
examples.
    The Cotton Exchange, which is down the street, a huge swath 
of property that goes from the Mall all the way out to 395, 
that very valuable property, just the Cotton Exchange, we held 
a hearing there in the vacant building, which has been vacant 
for years, and some of the adjacent property. That property we 
finally got, I think last year, some decision to move forward, 
and I'm pleased to hear that, but we have one of the most 
valuable assets in property in our Nation's capital still 
vacant.
    You may hear some of this from GSA, but we have had some 
successes and better luck in getting the Federal Government to 
act on some other buildings.
    Let me say, when I started this, I looked a lot at 
Washington, D.C., our Nation's capital, but I also looked--
several years ago, we took a subcommittee down to NASA, to Cape 
Canaveral, which is in my own backyard. I'm in central Florida. 
We held a hearing there. And there are hundreds of buildings, 
about half of them vacant--177,000 acres, five times the size 
of Manhattan, much of it underutilized. The space program, 
which has been diminished as far as Federal participation, a 
lot of those assets sitting idle, buildings sitting empty.
    I will report, that 177,000 acres, and next to it 16,000 
acres, which is owned by the Air Force, just adjacent to it, we 
are struggling but we are making some progress with either 
finding uses for the build, tearing some of them down that are 
expensive to maintain, or looking at additional ways we can 
utilize those valuable assets for the taxpayers. So that's a 
little bit of good news on that side.
    In June, I held a hearing--of 2012, I held a hearing in the 
Heating Plant in Georgetown, which had been vacant since 2000, 
costing taxpayers millions of dollars to maintain, empty over 
more than a decade in 2013. In fact, when we arrived to conduct 
the hearing in the empty building, there was a ``for sale'' 
sign that had been put up on the top floor of the building. We 
asked the witnesses from GSA at the time when they started 
their marketing plan, and they had told us ``yesterday,'' which 
was the day before the hearing, they put the sign up.
    So that did go online; that sold to developers for $19 
million. And I'm told that property has plans now from the 
private sector to create a substantial development which will 
employ people and utilize the property and also pay taxes.
    In March 2013, we held a field hearing in--well, actually, 
I held one in the empty Dyer Courthouse, which actually had 
been vacant since 2007 when they opened the adjacent new 
Federal courthouse. After that hearing--and it was costing us 
$1.2 million a year to maintain vacant--I was contacted by the 
president of Miami-Dade Community College, which is across the 
street. It's like from Rayburn to Longworth buildings, that 
distance. He had said he had contacted GSA and attempted to 
find some information on how they could obtain that and use it 
for classrooms and a judicial center.
    Nothing happened, so I went down and we held another 
hearing at the community college to highlight the empty 
building. That goes back, again, a number of years. And I'm 
pleased to say that just within the last few months, actually 
in May, we completed a negotiation. We've transferred over the 
property to Miami-Dade. It will be the center of judicial 
studies and architecture.
    It's a historic, beautiful building in the center of 
downtown Miami. There's a picture of it there. It has a 
coquina, which is very rare stone, facade. But a magnificent 
building that we let go into some disrepair will now have a 
use. But it sat vacant for many, many, many years, costing 
millions and millions.
    Another success story that we've had and also highlighted--
the last two were highlighted here in this ``Sitting on Our 
Assets''--is the Old Post Office. And we conducted a hearing. 
It was 32 degrees outside. And in the vacant 15,000-square-foot 
annex behind the post office, we conducted a hearing in 38-
degree weather. Made a few of the bureaucrats and our staff 
shiver. But, also, we were losing up to $6 million a year.
    The Old Post Office main structure was built in the late 
1800s, and it had 400,000 square feet--a magnificent structure 
just two blocks from the White House. And of the 400,000 square 
feet, half of it was empty. And we were losing between $6 
million and $8 million a year on that project. Last week, they 
had the soft opening, and they will open, I think, next month. 
I'm going next week to view it. It is now the Trump Hotel.
    There was a--actually, we went down a year later and held a 
second hearing in the annex again, which will now be the 
largest ballroom, I'm told--I'm sorry, banquet room east of the 
Mississippi River. The project will employ hundreds and 
hundreds of people, millions in tax revenue and, actually, 
revenue to the Federal Government, rather than losses. An 
incredible example.
    GSA came and testified earlier that the project was ahead 
of schedule and under budget. So we can take properties like 
that and turn them around for the taxpayer and make a big 
difference.
    Finally today, we've invited the Department of Agriculture 
to our hearing. They'll tell us they're good about disposing 
some of their excess property, but, unfortunately, some of the 
data they provided us shows that their annual operating costs 
for building uses has increased 95 percent from fiscal year 
2014 to 2015. And they were unable to provide us with an 
explanation. We'd like to hear that today.
    USDA also holds on to poorly utilized properties in prime 
real estate locations. We have--we can put up the map. One of 
the biggest properties that USDA has is the Agricultural 
Research Center in Maryland, just not too many miles from here, 
and they have 6,500 acres. I think that--we pointed out that's 
the size of the city of Key West.
    One of the most valuable pieces of real estate in the 
Capital Beltway area, of which--and just a few minutes ago 
staff handed me--if we can find the figures. There are only 113 
utilized buildings on the property, a total of 379 vacant 
properties. So that's not a very good record.
    Some of those are small structures. I've been out there. 
There are some chicken coops and pigpens and other things that 
were used years ago. There are also office buildings that are 
vacant, with the windows broken out and vines growing over 
them. It's not a pretty sight. It's not the way we should 
handle a valuable public asset.
    So we'll look at the Beltsville Agricultural Research 
Center. We have 200 of these research centers, some that date 
back, I believe, to the 1820s, across the country--that's just 
one example--who had a different role than they have today. And 
while the Department of Agriculture serves a good purpose, we 
need to revisit the vacant properties and valuable assets that 
they hold, maybe don't maintain well.
    With that, I'd recognize any other members for opening 
statements.
    Mr. Grothman?
    Mr. Grothman. Yeah, I'd just like to thank the subcommittee 
chair for holding this hearing. And I hope, at the end, we do 
something about expediting the disposal of this excess 
property. I mean, obviously, it's not just a matter of the 
Federal Government is broke and we could make some money if we 
sold some of this property, but even maintaining the property 
is wildly expensive.
    I know back in Wisconsin we have a local governmental 
authority that's been owning all sorts of excess property, and 
very frustrating because it's just a waste of taxpayers' money. 
And I hope, by the time we're done, maybe not this session but 
early next session, we can flip this stuff around and clear it 
out.
    Mr. Mica. Will the gentleman yield?
    I'll also say that, working with both Chairman Chaffetz, 
who had a bill previously, Mr. Denham from California, who 
chaired the Public Buildings Subcommittee, and others, there is 
legislation pending that would not only require an inventory 
but an accounting and then action, an evaluation of the 
property and then action--independent evaluation, then action 
to make certain that we use to the maximum the value of those 
assets.
    So Mr. Denham isn't here, but I'd like to--maybe you could 
request a copy of his legislation, and Mr. Chaffetz, be put in 
the record at this point.
    Mr. Grothman. I'll request them.
    Mr. Mica. So ordered.
    Mr. Mica. At least we'll have that in the record. Thank 
you, Mr. Vice Chairman.
    Mr. Massie?
    Mr. Massie. Yes. My interest in this is because we just 
recently received some really devastating news, that the IRS 
plans to move 2,000 jobs out of the biggest city in our 
district. And, you know, we've got 3 years to react to that. 
Hopefully, the IRS would find some other use for the facility, 
because they don't intend to reduce the number of employees 
overall.
    But I have this dread that I'm going to be here in 3 years 
if--for instance, if the IRS doesn't find another use for the 
facility, my concern is that we would add insult to injury, 
because this sprawling, single-story structure that's right in 
the middle of our downtown, in some of the most valuable real 
estate, might get tied up indefinitely. And that really would 
add insult to injury.
    So I'm trying to work forward to that point when the IRS--
hopefully they stay, hopefully they find another use for this 
facility. But if they don't, what we need to make sure of is it 
doesn't end up like some of this real estate that Chairman Mica 
has identified in Florida and here in Washington, D.C.
    So I want to thank the chairman for looking into this. I 
think it's a great topic. And I want to thank the witnesses for 
being here today to help us figure out how, when government 
does change--sometimes it doesn't change fast enough, but when 
it does change and it finds out how to operate more 
efficiently, that we make sure that we don't tie up these 
properties and keep them from the private sector, keep them 
from some other higher use.
    But, anyway, I look forward to hearing from the witnesses 
today and thank the chairman and the vice chairman.
    Mr. Mica. I thank the gentleman, and we'll work with you. 
That could be devastating, and you want to turn that property 
around to its best use if you are hit with such a turndown by 
the agency.
    I thank the members. And, as I said, we'll leave the record 
open for 5 legislative days for members who'd like to submit a 
written statement. And I'll ask unanimous consent, if the 
minority does not appear today, to have their statement put at 
this point in the record.
    Without objection, so ordered.
    Mr. Mica. We'll now recognize our panel of witnesses and 
thank them for participating.
    I'm pleased to welcome the Honorable David Mader, and he is 
Controller of the Office of Management and Budget; the 
Honorable Gregory Parham. Mr. Parham is the Assistant Secretary 
for Administration at the Department of Agriculture. Mr. 
Michael Gelber, he's the Deputy Commissioner of the Public 
Buildings Service at the General Services Administration; and 
Mr. David Wise, Director of Physical Infrastructure at the 
Government Accountability Office.
    I'd like to welcome all of our witnesses. Some of you have 
been here before; some of you may be new. This is an 
investigations and oversight subcommittee of Congress. If 
you'll stand, we'll swear you in.
    Raise your right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give before this committee and subcommittee of 
Congress is the whole truth and nothing but the truth?
    Let the record reflect that all witnesses answered in the 
affirmative.
    Again, thank you.
    Now, the ones who have been here before know we try to 
limit your opening statement to 5 minutes, if you have 
additional data, information, or a statement that you'd like to 
be made part of the record, just a request through the chair or 
one of the members. We'd be glad to accommodate you.
    With that, we'll recognize our witness from the OMB.
    Thank you for being with us. You are recognized, sir.

                       WITNESS STATEMENTS

               STATEMENT OF THE HON. DAVID MADER

    Mr. Mader. Thank you, Chairman Mica and members of the 
subcommittee, for the opportunity today to testify and update 
this subcommittee on the changes that we are implementing to 
improve the government's real property management and disposal 
program.
    Since my hearing in 2014 with the chairman, we've made 
significant progress in reducing the Federal footprint and 
institutionalizing a real property management program across 
the government. Today, I will update you on the status of two 
important administration initiatives that have improved the 
efficiency of the government's real property portfolio.
    OMB began its efforts with the ``Freeze the Footprint'' 
policy initiative in fiscal year '12, and it was in effect 
between fiscal year '13 and '15. The objective of that policy 
at the time was to freeze agencies' office and warehouse 
portfolios to ensure that the government's portfolio did not 
increase.
    I'm pleased to report that the administration, thus far, 
has exceeded its goal of freezing the footprint. In fact, we 
have reduced the government-wide-portfolio by 24.7 million 
square feet from fiscal year '13 to '15, which represents a 
3.3-percent reduction from the baseline that we established in 
fiscal year '12.
    We estimate that the government will avoid $300 million in 
rent and operation and maintenance costs as a result of this 
initiative. Just to sort of give members an idea of what 24.7 
million square feet looks like, think about 3.8 Pentagons. 
That's what we've saved between fiscal year '13 and fiscal year 
'15.
    Second, while the ``Freeze the Footprint'' policy was still 
underway, we recognized the need to institutionalize a lasting 
strategic real property management program for the Federal 
Government. In March of 2015, OMB released the ``National 
Strategy for Efficient Use of Real Property'' and its companion 
``Reduce the Footprint'' policy that covers all CFO Act 
agencies. So, basically, this is all civilian agencies and the 
Department of Defense. The national strategy institutionalized 
a government-wide goal to right-size our Federal real property 
portfolio by defining the strategic framework which agencies 
will use to manage their portfolio from here forward.
    To implement this strategy, OMB issued the ``Reduce the 
Footprint'' policy to provide agencies specific performance 
goals and measures. The policy, which was effective in fiscal 
year '16, requires agencies to implement a 5-year rolling 
planning process that sets annual square foot reduction 
targets. It prioritizes disposal of unneeded and inefficiently 
used properties by requiring agencies to set annual square foot 
disposal targets for all buildings types.
    The reduction targets function as an agency performance 
measure, and, when combined with some additional benchmarking 
that we've been doing over the last couple years, we now have 3 
years of data going forward to start holding agencies 
accountable for their reduction plans. These performance 
measures for fiscal year '16 have resulted in a goal of 
reducing another 8 million square feet of space in the current 
fiscal year.
    The policy also creates a portfolio analysis process by 
which agencies, with the support of GSA, will analyze 
underutilized and unutilized properties. The 5-year goal for 
the fiscal year '16 through '20 plan is to reduce another 61 
million square feet of office and warehouse space.
    With regard to property disposal, the government-wide 
program has achieved solid results over the last 2 fiscal 
years, and my colleagues from GSA will address that in more 
detail.
    We appreciate the support from Congress for the legislative 
solutions that permit agency retention for the sale proceeds 
for reinvestment in additional disposals, provide expanded 
authority for GSA to support agencies' work to prepare 
properties for the declaration of excess, and to offer relief 
for some aspects of the current disposal process.
    And I think, Mr. Chairman, this speaks to a lot of the 
comments that you made in your opening comment. We can do so 
much administratively. And I think the bills from Chairman 
Chaffetz, from Chairman Denham--and I have been personally 
working with the House and Senate in trying to get both 
chambers to agree on some kind of legislation to move forward.
    In addition to the legislative solutions, we must invest to 
make the necessary reconfigurations, relocations, and disposals 
that will result in future cost avoidance. While we've made 
good progress, significant efficiency opportunities remain to 
be realized.
    One significant challenge has been the historically low 
levels of funding appropriated to the Federal Building Fund 
since fiscal year '11. Between fiscal year '11 and fiscal year 
'15, the Congress underfunded the Federal Building Fund by more 
than $5 billion. This has prohibited GSA from making necessary 
repairs to Federal buildings and delayed the construction of 
critical new Federal facilities.
    The President's '17 budget would restore GSA's authority to 
fully utilize incoming rent funds to construct new facilities, 
such as a consolidated Department of Homeland Security 
headquarters, as well as maintain the existing GSA Federal 
buildings that need major renovations and basic repairs. We ask 
the Congress to continue to support GSA's capital program and 
the critical projects that are identified in the fiscal year 
'17 President's budget, including a $100 million request for 
GSA's consolidation fund.
    We look forward to working with the Congress on legislation 
and funding in fiscal year '17 and beyond that will enable us 
to make even greater progress and accelerate our mutual 
interest of the reducing the underutilized and unutilized 
property.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [Prepared statement of Mr. Mader follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Mica. Thank you.
    And I think I'm going to go to Mr. Gelber--wait, wait, 
wait. I've got the two oversight. We'll go to the oversight, 
Mr. Wise, and then we'll go back to GSA, and then we'll get you 
last, Mr. Parham.
    Okay. Mr. Wise, you're recognized, from GAO.

                    STATEMENT OF DAVID WISE

    Mr. Wise. Chairman Mica and members of the subcommittee, 
thank you for the opportunity to discuss our work on the 
management of excess and underutilized Federal real property. 
In 2003, we added Federal real priority to our biennial High-
Risk List, in part due to longstanding management challenges, 
including disposal of excess and underutilized property.
    I've got three key points to make today. Over the past 
several years, the administration has taken a number of steps 
to improve management of the government's real property 
portfolio. Second, agencies face longstanding challenges in 
disposing of excess and underutilized real property. And, 
third, implementing key GAO recommendations and proposed reform 
legislation could help address these challenges.
    Since 2012, the government has made efforts to improve real 
property management. The government has developed and worked to 
improve the Federal Real Property Profile, the government-wide 
database.
    In 2015, OMB issued its Real Property National Strategy, 
which aligns with many of the desirable characteristics of the 
effective national strategy the GAO has identified, including 
describing the purpose, defining the problem, and outlining 
goals and objectives. The 2015 strategy is an important step 
forward, as it requires agencies to set annual space reduction 
targets and adopt space use standards.
    Prior to issuing the national strategy, OMB issued ``Freeze 
the Footprint'' and ``Reduce the Footprint'' directives. These 
directives have assisted agencies to better utilize existing 
space and identify and dispose of unneeded space.
    Despite the progress, significant challenges remain. For 
example, a lack of reliable FRPP data makes accurately 
measuring the amount of excess property challenging. While OMB 
and GSA have taken steps to improve the FRPP, such as issuing 
guidance and implementing data validation procedures, GSA has 
not fully analyzed agencies' collection or reporting practices 
or the limitations of the data.
    Certain key FRPP data elements, such as utilization, 
continue to be inconsistently reported by agencies. As a 
result, FRPP data may not fully reflect the extent of real 
property challenges faced by agencies nor the progress they may 
have made in addressing such challenges. In prior work, we 
found inaccuracies in warehouse utilization data as well as 
results from the ``Freeze the Footprint'' initiative.
    Legal requirements can also present challenges to disposal. 
As the government's agent, GSA follows a prescribed process for 
the disposal of Federal properties reported as excess by 
agencies. This process includes requirements that the property 
be screened for potential use by other Federal agencies, 
homeless providers, and State and local governments for other 
public uses.
    Costly environmental requirements may outweigh the 
financial benefits of property disposal, especially for 
agencies such as the Department of Energy. In some cases, 
competing stakeholder interests can impact the process. 
Stakeholders may include State, local, and tribal governments, 
business interests in the local communities, historic 
preservation groups, and the general public. Finally, limited 
accessibility can influence the process. For example, a 
building on a closed VA campus is unlikely to draw much 
interest.
    The Cotton Annex in Washington, D.C., is a good example of 
disposal challenges. This 118,000-square-foot building, located 
just south of the National Mall, has been vacant since 2007. As 
we reported in 2016, GSA's recent attempt to exchange the 
property for construction services failed when GSA was unable 
to obtain sufficient value from the exchange, making the fate 
of this unneeded building unclear.
    GAO recommendations. In an August 2016 letter, GAO conveyed 
several open key recommendations to the GSA Administrator 
relating to excess and underutilized property. These included: 
one, an April 2016 recommendation aimed at improving the 
quality and transparency of FRPP data; two, a November 2014 
recommendation that GSA articulate a strategy for its role in 
promoting effective and efficient warehouse management 
practices across the Federal Government; and, three, a 
September 2014 recommendation that GSA and DHS work jointly 
with regard to the DHS headquarters project on the Saint 
Elizabeth's campus in order to develop a comprehensive needs 
assessment and update cost and schedule estimates. We will be 
assessing the agency's latest plan when it's completed.
    Finally, proposed real property reform bills could help 
address the challenges of Federal excess and underutilized 
property. For example, the Federal Assets Sale and Transfer Act 
of 2016 could help address stakeholder influences by 
establishing a public buildings reform board to identify 
opportunities for the Federal Government to significantly 
reduce its inventory of civilian real property and reduce its 
costs.
    Additionally, the Public Buildings Reform and Savings Act 
of 2016 could also promote consolidations and disposals by 
requiring that GSA, one, justify to Congress any new or 
replacement building space in the prospectus process, including 
reasons why there cannot be consolidation or co-location into 
other government-owned and -leased space; and, two, dispose of 
specific properties in the Washington, D.C., area, including 
the Cotton Annex.
    Although both bills have passed the House of 
Representatives, neither has been enacted.
    Chairman Mica and members of the subcommittee, this 
concludes my statement, and I'll be pleased to answer any 
questions.
    [Prepared statement of Mr. Wise follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Mica. Thank you. And we'll catch you with questions 
after we've heard from the other two witnesses.
    We'll hear from our GSA representative now, Mr. Gelber.

                  STATEMENT OF MICHAEL GELBER

    Mr. Gelber. Good morning, Chairman Mica and members of the 
subcommittee. My name is Michael Gelber, and I am Deputy 
Commissioner of the U.S. General Services Administration Public 
Building Service. Thank you for inviting me to this hearing on 
vacant Federal properties.
    GSA's mission is to deliver the best value in real estate, 
acquisition, and technology services to government and the 
American people. To meet this mission, GSA is working with 
Federal agencies to improve space utilization, reduce real 
estate costs, and deliver space that allows our partner Federal 
agencies to better achieve their missions.
    Additionally, we are working with the Office of Management 
and Budget and the Federal Real Property Council to improve the 
Federal Government's inventory of real property, identify 
opportunities to better use underperforming properties, and 
assist agencies in the development of strategies to divest of 
their unneeded assets.
    Over the last 5 years, from fiscal year 2011 through fiscal 
year 2015, GSA has disposed of over 940 properties, both those 
managed by GSA as well as other landholding agencies, 
generating over $275 million in proceeds. GSA disposes of 
Federal real property through public sales, public benefit 
conveyances, negotiated sales, and Federal transfers.
    This past April, GSA sold the Metro West facility in 
downtown Baltimore, Maryland, for more than $7 million at a 
public auction. The sale of this 1-million-square-foot 
facility, which previously housed the Social Security 
Administration, will save the taxpayer more than $3 million per 
year. Disposing of this building will serve as a catalyst for 
economic development on the west side of Baltimore.
    In Richland, in the State of Washington, GSA worked with 
the city to dispose of a portion of a parking lot at the 
Richland Federal Building. The city expressed a strong interest 
in this downtown parcel and will be using the site for new city 
hall. The city offered GSA cash and a city-owned half-acre 
parcel immediately adjacent to the Richland Federal Building.
    GSA offers properties to communities through its Public 
Benefit Conveyance Program. In Buffalo, New York, GSA has been 
working with the city to use the historic Dillon Courthouse for 
a law enforcement purpose. The conveyance of this property will 
reduce the Federal footprint by approximately 180,000 gross 
square feet of space and reduce maintenance costs by over 
$650,000 annually.
    In addition to traditional disposal processes, GSA uses 
other tools to redevelop properties that no longer serve the 
government's needs. For example, as the chairman mentioned, in 
Miami, Florida, GSA entered into a long-term outlease with the 
Miami-Dade Community College for the historic Dyer Federal 
Building and Courthouse. As part of the outlease, the college 
will renovate the property for its use while preserving its 
historic features. This agreement will enable the building to 
continue to be a vital part of the Miami community for years to 
come and save the taxpayer $1.7 million in annual maintenance 
and operation costs.
    GSA is leveraging the value of Federal assets through 
exchanging these properties in return for construction services 
or newly constructed buildings. In Cambridge, Massachusetts, 
the Volpe National Transportation Systems Center is located on 
14 acres in a high-technology hub of the city and no longer 
adequately serves the mission of this facility. Earlier this 
month, qualified developers submitted proposals to transform 
this property in exchange for a newly constructed research and 
technology facility for the Department of Transportation on a 
portion of the current site. This project will result in the 
delivery of new and improved space for transportation research, 
as well as economic development opportunities and tax revenue 
for the local community.
    GSA is also supporting the ``Reduce the Footprint'' policy 
by creating and enhancing several analytical tools to help 
agencies identify possible opportunities for disposal, 
consolidation, and co-location. GSA's Real Property Management 
Tool allows agencies to identify expiring leases and occupancy 
agreements and recognize cost savings that could be realized 
from the disposal of underutilized and inactive assets. 
Agencies can also use this tool to view benchmarks, such as 
rent per square foot, operating and maintenance costs per 
square foot, square feet per person, and compare agency-
specific data with government-wide averages.
    Another tool, which GSA launched this June, is the Asset 
Consolidation Tool. This tool allows an agency user to identify 
what Federal space exists in a certain geographic area, such as 
a ZIP Code, a particular city, county, or within a mileage 
radius of a particular building. This information enables 
agencies to make targeted searches for space that other 
agencies currently occupy in a given area.
    While GSA has made significant progress and improvements in 
managing Federal real property and more aggressively disposing 
of unutilized assets, there are still a number of longstanding 
challenges that need to be addressed. These include incentives 
for Federal agencies to identify and execute disposals, 
statutory requirements prior to disposals, aligning non-Federal 
stakeholder interests, costs associated with the disposal 
process, and remote property locations. GSA is working 
diligently with agencies to overcome these hurdles and working 
with OMB to assist with its efforts.
    GSA is committed to carrying out its mission of delivering 
best value in real estate. I thank the committee for the 
opportunity to testify today, and I look forward to answering 
your questions.
    [Prepared statement of Mr. Gelber follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Mica. Again, thank you.
    And we'll hear from our last witness, Assistant Secretary 
of Agriculture Parham.
    Welcome. You're recognized.

              STATEMENT OF THE HON. GREGORY PARHAM

    Mr. Parham. Thank you, Chairman Mica, and thank you to the 
members of the committee for allowing me to testify today on 
the Department of Agriculture's efforts to address those 
properties that have been determined to be excess in the USDA 
portfolio.
    As one of the largest property-holding departments, USDA is 
well aware of the need to continually improve the management of 
its land and facilities to maximize the value of these assets 
for American taxpayers. In fact, the Department, under the 
leadership of Secretary Vilsack, went as far as establishing a 
target in its current strategic plan to reduce its overall 
space holdings. This was the first time that the Department has 
had such a target, and its inclusion has helped to strengthen 
USDA's commitment to enhance stewardship of Federal resources, 
which have been a core principle of Secretary Vilsack's tenure 
at USDA.
    To demonstrate this commitment, the Department has taken a 
number of actions in recent years related to better management 
of facilities and the elimination of excess properties. One 
example worth mentioning, sir, is the recent disposition of the 
Subtropical Agricultural Research Station in Brooksville, 
Florida. Between 1929 and 2012, USDA's Agricultural Research 
Service utilized the Brooksville location to study genetic and 
environmental interactions in beef cattle.
    Upon the closure of this facility in 2012, the Department 
sought opportunities to dispose of the property in a manner 
that would be meaningful to the surrounding community. As the 
property consists of over 3,800 acres of agricultural land and 
included 19 buildings, there was a tremendous opportunity posed 
by the potential disposition of the research station.
    Fortunately for the Department, Congress also noted the 
opportunity and provided to USDA special authority to transfer 
the property at Brooksville and other similar research stations 
across the Nation to higher educational institutions.
    By utilizing the statutory authority, the Department was 
able to enter into an agreement with Florida Agricultural and 
Mechanical University. Through this agreement, the Department 
transferred in October 2015 the entire Brooksville location to 
Florida A&M, which agreed to use the property to create 
educational opportunities for beginning farmers and ranchers.
    Not only does such an agreement enhance USDA's effort to 
support the next generation of growers and producers, but it 
also represented one of the single largest land transfers to 
one of the 19 historically Black land-grant universities 
established in the second Morrill Act of 1890. The result of 
this land transfer has been positive for the university and the 
farmers that it will serve and has also been a success for the 
Department.
    Despite the successful outcome in the transfer of 
Brooksville, the Department faces challenges in the disposition 
of other excess properties across the country. The specifics of 
such challenges may vary by location, but the Department has 
identified some common barriers that limit our ability to move 
more swiftly to reduce holdings of excess properties.
    These barriers primarily result in situations where the 
costs far exceed the benefits of disposing of unneeded assets. 
In many cases, the Department must incur significant costs to 
prepare a facility for disposition. Such costs may include the 
rehabilitation of a facility to make it commercially attractive 
or to tear down and remove buildings and structures if land is 
to be conveyed.
    In addition, multiple USDA properties require some level of 
environmental remediation prior to making the property 
available for another owner. Such remediation is necessary to 
abate and clean up hazardous chemicals that were released on 
the property either through the Department's action decades ago 
or as a result of actions taken by a prior owner of the 
property. In some cases, such abatement can cost millions of 
dollars that must be paid from current funds, creating a 
challenge in managing budgetary priorities.
    Another challenge is the lack of authority for the 
Department, apart from the Forest Service, to retain any 
proceeds from the potential sale of excess properties. As the 
Department may accrue significant costs in preparing a facility 
for sale, there is tremendous disincentive to dispose of 
properties when limited or no funding is available to offset 
the costs incurred.
    A further challenge that is common for many USDA excess 
property locations is that they are often situated in rural, if 
not remote, locations. As such, the commercial value for 
facilities in areas far away from population centers means that 
the demand for such facilities is often low.
    One location not located in a remote area in which I am 
aware that the subcommittee has a keen interest is the 
Beltsville Agricultural Research Center, or BARC, in 
Beltsville, Maryland, as you stated earlier. It's a research 
facility of nearly 6,500 acres located just off the Beltway in 
the Maryland suburbs of Washington, D.C. This facility houses a 
number of farm sites and laboratories where USDA conducts 
research on agriculture practices of benefit to American 
farmers and ranchers.
    As a result of its proximity to Washington, D.C., there has 
always been a strong interest in exploring opportunities to 
convert portions of the facility for other uses, which 
partially explains how the facility is now less than half of 
the original size.
    Within BARC, there are hundreds of buildings and 
structures, some of which no longer support the mission needs 
of USDA and have fallen into a state of disrepair due to the 
lack of resources to maintain or upgrade or demolish the 
facilities.
    Another key factor when considering options for the BARC 
facility is the current set of restrictions in place that limit 
the Department's ability to dispose of any portion of BARC. In 
fiscal year 1988, Congress included a provision in the 
Department's appropriation legislation that restricted USDA's 
ability to dispose of any property at BARC. That provision 
remains in place today. In effect, this restriction requires 
that Congress approve in advance any transaction that would 
move property from the BARC portfolio.
    Therefore, it would--it should be noted that the 
legislature in the State of Maryland has also created a statute 
that limits the use of BARC land to agricultural purposes or 
open space should they be transferred out of Federal ownership. 
As a result, the commercial interest in the BARC lands will be 
limited due to this restriction.
    Lastly, I will mention that the Department has identified 
at least $18 million of environmental remediation activities 
that must occur at various locations at BARC. These costs, 
combined with the other challenges expressed generally for the 
Department and specifically for BARC, significant affect USDA's 
ability to dispose of any property in Beltsville.
    Regardless of these challenges, however, the Department is 
committed to finding opportunities to improve the management of 
the Federal excess that it controls. As discussed previously, 
the barriers that the Department faces when considering how it 
can dispose of excess properties factor into the cost-benefit 
analysis done when considering disposal options. The Department 
is willing to work with the subcommittee and our colleagues in 
OMB and GSA to identify potential solutions across the country.
    I look forward to today's discussion on this important 
topic of excess property and to answering your questions. Thank 
you very much.
    [Prepared statement of Mr. Parham follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Mica. Well, thank you.
    And I thank all of our witnesses. And we'll go right to 
questions, and I'll start.
    Mr. Parham, you're aware that on Tuesday, February 12th, 
2013, I visited, along with congressional staff, the Beltsville 
Agricultural Research Center? Yeah. And we have 6,500 acres 
there.
    It's very nice that you point out what you did in Florida 
and Brooksville in 2012--that was done in 2015. But I was 
there, asked to see if we could come up with some plans to do 
something. I saw office buildings with vines growing over them, 
empty buildings.
    And then, today, the staff reported to me on the huge 
number of vacant buildings that still exist. I've never seen a 
plan to do anything about that.
    I sent the staff out to see the condition. I didn't get to 
go.
    Have you got that little video?
    I haven't seen it yet, so let's see what's there.
    [Video shown.]
    Mr. Mica. Okay. That one's empty.
    Well, that looks pretty good.
    That one's empty.
    That one's empty.
    Uh-huh, yep. Nobody there.
    That looks pretty good. That's well-utilized Federal 
property.
    This is one I saw.
    There are several of these buildings, structures.
    More. It kind of goes on and on.
    Have you been out there, Under Secretary?
    Mr. Parham. Yes, sir. As a matter of fact, I, along with 
the Administrator for the Agricultural Research----
    Mr. Mica. This is the condition of our Federal properties. 
Looking pretty good, hey?
    I hadn't seen it in 3 years. I think we've made a lot of 
progress--unfortunately, in the wrong direction.
    Look at this, members.
    This is very valuable. Now, Brooksville--I've been in real 
estate--maybe you could get $5,000 an acre. This is worth an 
incredible amount of money. Not that it has to be commercially 
developed. It may be well-suited that part of it is a park or a 
natural preserve.
    But this is disgraceful, that we have Federal properties 
around the country--and the Department of Agriculture--again, 
went out there, visited, requested that we come up with a 
proposal. If there are impediments, we need to know. If there's 
a plan--it's just not acceptable. I'm sorry.
    Mr. Gelber, one of the things that we came up with was we 
proposed--and, actually, one of the predecessors in GSA, I 
think public buildings officials--we said there are thousands 
of people who deal with disposing--they're professionals--
disposing or evaluating real estate and property and its best 
use and what you can do with it. And I asked GSA to come up 
with some sort of a way to bring those folks in, look at 
properties that we have, and then we could utilize their 
talents to look at what we had and come up with 
recommendations.
    We started a Federal Real Property Council as a result of 
that. Are you aware of that?
    Mr. Gelber. Yes, sir.
    Mr. Mica. And does it still exist?
    Mr. Gelber. Yes, sir.
    Mr. Mica. Yeah. Well, I met with the members about a year 
after they'd been put together for that purpose, and very few, 
just a few million dollars' worth of properties, a handful of 
properties had actually been handled. Do you know the status of 
the progress of that?
    Mr. Gelber. It's a continuing effort, sir.
    Mr. Mica. Yeah, but it's a very--I mean, it's pitiful, the 
response.
    And I have people that were involved in disposing of all of 
the S&L properties and things, huge numbers of properties, a 
great talent on that, and they tell me, you know, there's 
inertia in GSA and the Federal Government.
    You've seen the bill that's been proposed. And I think most 
of you--a couple of you commented, this is what we need to do. 
This pretty much codifies what we tried to get started, which 
you could do administratively. Yes, there are some impediments, 
but, no, again, the efforts have not come to fruition like we 
would like to see.
    Mr. Wise, you've done some inventories, I guess, of public 
buildings, but we really don't have a complete inventory of 
Federal buildings that are vacant, do we?
    Mr. Wise. No, sir, we don't.
    Mr. Mica. No. And some of the worst offenders are the 
Department of Defense. Well, actually, VA, we have a pretty 
good inventory; I saw that. But it's pages and pages of vacant 
properties. Some of you may have cited the difficulty with 
those properties, because sometimes they're in a complex or 
sometimes they're in the Rust Belt where we no longer have the 
veterans to occupy the medical facilities, for example. Is that 
correct?
    Mr. Wise. That can be an issue for sure.
    Mr. Mica. Yes.
    Mr. Wise. We talked about that, I think, in past hearings. 
And we mentioned in our statement for the record today that you 
occasionally, maybe more than occasionally, run into problems. 
When you have a property that's located, a building on a closed 
campus----
    Mr. Mica. Right.
    Mr. Wise. --it has--it will draw a limited amount of 
interest, just because the accessibility is in issue----
    Mr. Mica. Right. But, one, we don't have an inventory of 
vacant Federal properties or underutilized Federal properties. 
That's a given. Two, we don't know the condition of the 
properties we have. And I think you found that in your 
evaluation. Is that correct?
    Mr. Wise. Yes, sir. That gets back to an issue that we've 
talked about in a number of our reports, and that's the problem 
dealing with the overall database.
    And I think that many of the problems we talk about, when 
it comes to the Federal real property management, really kind 
of circle back to that foundational issue, which is there are 
still problems with having a clearly accurate and comprehensive 
real property database. I know that OMB and GSA have been 
working hard to try to improve that, but we have still found 
continuing issues with how agencies reported the data as it 
cycles back up into the larger database.
    And so that's a continuing problem, meaning that, for 
Federal real property managers, if you don't really know what 
you've got and what condition it's in, then how do you make 
rational management decisions.
    Mr. Mica. Uh-huh. Well, I heard one of the things that is 
cited by the administration is they need more money for the 
repairs and for also this process. But aren't there also the 
opportunity for public-private partnerships, where the capital 
can be provided by the private sector who acquires the 
property?
    Mr. Wise?
    Mr. Wise. We did a recent report on P3 and found that, 
while P3s have been very common in the infrastructure world, 
especially when it comes to transportation and highways, that 
sort of thing, we did not find many, if any, examples--very few 
examples of anything going on in the real property world. 
Theoretically, I think it certainly is a possibility, but we 
haven't found it to be a reality at this point to any great 
extent.
    Mr. Mica. Well, again, it depends on how you define it. The 
Trump Hotel, that's a public-private partnership. We're losing 
$6 million. We had a Federal Government controlling the 
building, losing about $6 million to $8 million a year. The 
square footage, 400,000 square feet, half of it empty. A newer 
annex behind, empty for 15 years. Anybody in the private sector 
would never let that happen. We did turn it over. We will now 
be getting a monthly revenue and a percentage, I think, of 
gross, or whatever the deal is, turning that around. That's an 
example.
    Maybe it isn't a public-private partnership, but we have a 
public-public partnership, where we turned the property at the 
Miami-Dade--or the Federal courthouse in Miami turned over to a 
State institution, a college. A million and a half to keep 
empty, well, we'll no longer do that.
    I mean, we can look for these opportunities, but it's 
painful, and it takes so long. The property in Miami, again, we 
just turned over this May, is almost a decade. And going back 
and forth and up and down. I've worked on just some of the ones 
we outlined in our report, which is now many years old. And 
we're resolving on the Cotton Exchange that has gone on, and 
that that was cited here.
    Mr. Under Secretary Parham cited the possibility of the 
Department of Agriculture with university. But there are 
opportunities, because we're sitting on incredible Federal 
assets, all of them costing billions.
    Hell, we could--excuse me, I won't say that. Heck, we can 
take the income, the revenue, just from these properties and 
turn it over. They say Congress isn't funding. Well, the 
opportunities are there with public-private partnership, 
public-public partnership, and also assets, maximizing them and 
getting a return.
    We've actually made money tearing down, since our hearing 
at the Cape, some of the buildings and selling some of the 
unused material for scrap, which we've made money and cut our 
costs of maintenance and security because the building's gone.
    I mean, it just goes on and on. Nobody in the Federal 
Government seems to be very creative in this.
    There have been some attempts by OMB in expanding, again, 
the number of square feet. And you told me you're targeting now 
61 million square feet for the future? Is that----
    Mr. Mader. Yes, sir, for 2016 through 2020, 61 million 
square feet of just office and warehouse space, because that, 
we feel----
    Mr. Mica. Good.
    Mr. Mader. --is really where significant savings are.
    Mr. Mica. And then the President's initiative, which I 
support, better utilization of existing space. Been working 
with you on the FTC building, consolidation of that into the 
Department of Commerce building, and then utilization of the 
old FTC building as a National Gallery rent space. And you have 
a huge amount of rental space with the FTC.
    Just a question: With the FTC in the new leased space--it's 
the Constitution building, I believe. That lease that GSA had 
gotten into was a million square feet. And the lease was 
botched, the lease acquisition was botched, as I recall, and 
the courts ordered GSA to honor the lease, which moved part of 
the FTC in. And that's several years back now.
    That lease expires, and I would like to see what we can do 
in consolidating some of that space in the Constitution 
building along with the existing space that's being utilized in 
the old FTC building into the Department of Commerce, of which 
we're renovating a million square feet. But there are no final 
plans for about 200,000-plus square feet, where we could have a 
consolidation.
    And, particularly, if you could report back to me, too, 
eliminating some of the duplicate spaces that are utilized in 
the buildings--child care; one important one is data centers; 
auditorium; and conference space--I would appreciate it. And 
I'll ask the staff to follow up with a specific line of 
questions.
    Can you help us, Mr. Gelber?
    Mr. Gelber. Yes. We'd be happy to work with your staff on 
that.
    Mr. Mica. Thank you. Thank you.
    I have other members.
    Did you want to go next, Mr.DeSaulnier?
    Mr. DeSaulnier. I just wanted to make a comment that I'm 
supportive of what the chairman is after here. In my experience 
in California, both the local and State level, we have the same 
problems.
    And one question to Mr. Wise is, as you look at this, how 
you look at developing best practices for us, but you interact 
with the State and local agencies who, because of things like 
the McKinney Act, have a relationship with what we do with this 
property.
    So, in one instance, in my district, over 20 years ago we 
worked out an agreement to transition some property to the 
police department, the sheriff's department, and the fire 
department for a public safety training facility. The local 
community is very supportive because we're taking it out of 
residential areas and putting it on, to be fair, what was an 
old military base, so it was part of the BRAC process but it 
was somewhat hyphenated.
    So, 20 years later, I still get comments about, when are we 
going to move in? So that interaction between other levels of 
government, since it's already in the statutes, and how you may 
recommend to us how we could change that.
    And then, secondarily, just, I mean, California, when we 
were in the recession, because we were unprepared in the 
General Services Department--you may recall the Schwarzenegger 
administration had a deal to sell five or six very large pieces 
of property, State property, in San Francisco and Los Angeles 
and lease it back. And when the legislative analysts came back 
with the analysis, it was such a horrible deal, even though at 
that time we were issuing IOU warrants because of our cash flow 
problem, we didn't do it. And thank goodness we didn't.
    But it's an illustration of where, if all levels of 
government were acting with best practices--and the 
intersection, given the recession, is a very extreme example, 
but these things aren't consequences, as the chairman says, 
where there's just a lost opportunity. There is a process. 
There is the possibility for real crisis and opportunity. So I 
think it would be a great thing that we stay on this and make 
sure that we develop these best practices.
    But to Mr. Wise, maybe you could just elucidate a little 
bit about what you're doing to interconnect the dots with State 
and local government.
    Mr. Wise. Well, overall, I can't really comment too much on 
the State processes for dealing with State property that's----
    Mr. DeSaulnier. No, I mean, the interaction with the 
Federal Government.
    Mr. Wise. Yeah. Well, State and local governments are 
obviously part of the screening process. As you know, under the 
current legislative framework, any Federal property that an 
agency decides is no longer needed goes through the screening 
process, to include, as you alluded to, the McKinney-Vento for 
homeless, State and local governments, as well as, you know, 
other public entities.
    There can be complications to these things. You've got 
local stakeholders, you've got historical preservation, you've 
got environmental issues that all come into play. This is why, 
as I think the chairman talked about and as we mention in our 
statement, some of the legislative reforms, we think, could be 
helpful in getting towards dealing with some of these problems.
    But, overall, the current situation is--it can be a 
cumbersome--I think as you discuss in your question, it's a 
very cumbersome process, and----
    Mr. DeSaulnier. So my question was more to--is more 
encouragement--so it may be more rhetorical, from what I'm 
getting from your response--is the encouragement to us to work 
with State and local agencies and their organizations here in 
D.C. Because what we all get, I think, when we go back to our 
districts or when we talk to our local government is, whether 
it's a perception or it's a reality, but I think it's a little 
bit of both, they don't want to deal with it because it's too 
cumbersome.
    Mr. Wise. Yeah.
    Mr. DeSaulnier. So there are lost opportunities for all of 
the entities there within the statutes and just because the 
perception of the bureaucratic process is too difficult.
    Mr. Wise. Yeah.
    Mr. DeSaulnier. So I know you're considering that as you go 
along, but however we can facilitate that conversation I think 
would be helpful.
    Mr. Wise. No. Thank you. That makes a lot of sense.
    I can give you one concrete example where the process did 
work quite well. In the town where I grew up in south-central 
Pennsylvania, there was a new courthouse built across from the 
old courthouse. Now, the city government was way, way expanded 
beyond what it could absorb in the old city hall, which had 
been built in the 1920s. So what happened? The old courthouse, 
through public conveyance, went to the city government. Many 
offices scattered all over town--water department, housing 
department, et cetera, et cetera, traffic department. All were 
able to come in after that building was renovated to then be 
able to get away from all these leases and the extra expenses 
they entailed.
    So there was an example where the city was able to get a 
public conveyance and it turned out to be, I think, pretty good 
public policy. So hopefully that can--I understand the problems 
you're getting at, but sometimes the system does work to the 
benefit of the taxpayers.
    Mr. DeSaulnier. We want that to be more the norm rather 
than the exception, which is what the perception is, I think.
    Mr. Wise. Okay.
    Mr. DeSaulnier. So when you can point out examples of that 
in an area that the land cost is very expensive, that's a 
perfect thing, where if all of these agencies are working 
together, it's in the best interests of the taxpayers.
    Mr. Wise. Sure.
    Mr. DeSaulnier. Thank you.
    Mr. Wise. You're welcome.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    And, again, a lot of what we do, sometimes we get into some 
pretty tough stuff, and they go back and forth in this 
committee, and some of it's partisan. This is meat and 
potatoes, this is--you know, we have the potential for saving 
billions of dollars, and we are trillions in debt. This isn't 
very glamorous. But just look at the progress we've made. We've 
had to hammer away, but I thank you. The bipartisan cooperation 
has been very effective in moving this forward.
    I started out one time with, I think, like, 16,000. That 
was the number we had initially identified, just under GSA, of 
vacant or underutilized properties. And I think when we did the 
first hearing, I crossed it out and we put 15,999. Well, we're 
going down the list. That's a tough way to do it.
    This bill, though--and you weren't here earlier; I had it 
made part of the record--is a bipartisan effort. Passed the 
House and is now in the Senate. And it does all the things 
we're discussing here--streamlining some of the disposal 
process, giving you the tools that you need to do this. So we 
can make progress.
    With that, Mr. Grothman, our vice chair.
    Mr. Grothman. Right. Interesting topic. I'd like to thank 
the chairman for bringing it up.
    What we're told here is right. We have about 7,000 Federal 
properties--and I take it these are just Federal buildings, not 
vacant properties--7,000 properties that are unutilized or 
underutilized. Just GSA. Amazing. Amazing, amazing, amazing. 
Waste money, waste money, waste money.
    And how many of those buildings--and somebody give me a 
shot at guessing--how many of those buildings, like we saw up 
here, are just, in essence, abandoned? I mean, every year, the 
value of the properties drop because they're not keeping up the 
electrical or even repairing the windows? Does anybody have an 
opinion on that? Give me a shot?
    Mr. Wise?
    Mr. Wise. We don't have any--the numbers that exist are 
numbers that are, I think, developed by the administration. So 
I think the question probably should be directed at the 
administration.
    Mr. Grothman. Is it unusual to have buildings in which we 
just let them--even let windows break and let, you know, the 
rain come in? Is this a common thing?
    Mr. Wise. Well, it certainly is existing in Beltsville, as 
the video showed, and there have been other cases where we have 
seen--when we did some work a few years ago looking at--it was 
actually work looking at the accuracy of some of the FRPP data, 
we saw some places, especially in, I can recall, in one of the 
national parks that we saw some kind of abandoned huts and 
little buildings that--I think some of the problem to do with 
that, sir, is that--and I think this was discussed in some of 
the previous statements--is that the cost to deal with these 
things is sometimes greater than just letting them go----
    Mr. Grothman. Okay.
    Mr. Wise. --because they don't have a use for it, and 
you've got----
    Mr. Grothman. Thank you.
    Mr. Wise. --environmental issues to deal with and no money 
for demolition----
    Mr. Grothman. Great.
    Mr. Wise. --and to take care of them.
    Mr. Grothman. When is it determined--I mean, how long does 
a building have to be vacant before it's determined we better 
sell this thing?
    Mr. Wise. That's up to the individual agencies, I think.
    Mr. Grothman. In general?
    Mr. Wise. I would probably defer on that question since 
it's not something that we've really looked at in any detail.
    Mr. Grothman. Okay.
    Once it's determined that we ought to get rid of a 
building, how long does it take to get rid of it?
    Mr. Wise. Well, again, it could take years. And, as we 
mentioned, under the current legislative framework, there's a 
pretty complicated process that needs to go forward, including 
all the issues to do with public conveyance. You've got issues 
to do with environmental----
    Mr. Grothman. You don't have a guess? Is there an average 
you can think off the top of your head?
    Mr. Wise. It just ranges. It can be quick, or it can take 
years. I mean----
    Mr. Grothman. What does ``quick'' mean?
    Mr. Wise. Sorry?
    Mr. Grothman. What does ``quick'' mean?
    Mr. Wise. Well, quick could be anywhere from a few months 
to a number of years. I mean, there's no discernible pattern 
that I know of.
    Mr. Grothman. Okay. One thing that sticks out when I look 
at this, first of all, you've got to give a shot to the State 
and Federal Government; then you've got to do something or 
other to see if the homeless need it.
    Mr. Wise. Right.
    Mr. Grothman. I don't understand the purpose of either one 
of those. I mean, it seems to me, if I have a building and I 
want to sell it, I don't say, first of all, I've got to call 
the local city and see if they want it and I've got to call the 
local homeless shelter and see if they want it.
    Is there any reason we shouldn't get rid of both of those, 
what I look at as just wasteful things?
    Mr. Wise. Well, that's up to Congress because that's the 
current legislative framework.
    Mr. Grothman. I know that's what it is, but do you see any 
benefit?
    Mr. Mader. You need----
    Mr. Grothman. Mr. Mader, you----
    Mr. Mader. Congressman, you need to change your 
legislation, and that's what we've been----
    Mr. Grothman. Well, I know, I know, I know.
    Mr. Mader. I know, but--and that's what the proposed 
legislation from the House does.
    Mr. Grothman. It looks like they're still keeping this 
homeless thing. And I'm not sure, are they still keeping----
    Mr. Mader. What we've been working with Chairman Chaffetz 
and the House is in streamlining it, because there is a value 
to availing these properties for use for the homeless. What 
we've been trying to do is to actually streamline that process.
    Mr. Grothman. What's the value? I mean, if I have a house 
and I want to sell it and I want to get out the best I can, you 
know, if the local homeless shelter or the local city want the 
property, they can bid on it or contact my broker.
    Mr. Mader. Under the legislation--you know, to Mr. Wise's 
comment, and I'll ask Mr. Gelber to talk more about it--the 
public conveyances, they're not paying for it. It's actually 
being transferred to them, similar to the example that our 
friends from Agriculture gave.
    So, again, you know, I have to reemphasize, as frustrated 
as the members are and the chairman, I've been doing this for 2 
years since I came to the administration. I'm frustrated, too, 
that we can't get the House and Senate to agree on legislation 
that everybody agrees on: that we need savings coming back to 
do more disposals, we need McKinney-Vento streamlined. I mean, 
we're as frustrated as you are, sir.
    Mr. Grothman. As I understand, it's being held up, what, in 
the Democratic cloakroom on the Senate side? Is that what's 
going on now? I think. That's what somebody told me.
    In your experience, when you deal with these--another 
thing. We have these 7,000 properties here. Of those, how many, 
if you bought the property, about, do you think you'd buy the 
property for the land, and how many do you think the building 
still has value?
    And I think there are many, many buildings that don't have 
value. I mean, you let a building go for 5 years, 6 years, 
particularly if the thing was built 50 or 70 years ago in the 
first place, my guess is usually the land is more valuable than 
the building.
    But do you know how many of these 7,000 buildings have 
value apart from the land?
    Mr. Mader. I don't have that level of detail.
    Mr. Grothman. Could you guess wildly? Half?
    Mr. Mader. I wouldn't even hazard a guess.
    Mr. Grothman. Okay.
    Kind of shameful. Well, we'll go ahead with--give the 
remainder--I guess I've used up my time. So we'll let the 
chairman----
    Mr. Mica. Thank you, Mr. Grothman.
    We'll now recognize Mr. Massie.
    Mr. Massie. Thank you, Mr. Chairman.
    I actually heard some good ideas here. I did hear some 
creativity. I wanted to follow up on that.
    Mr. Mader, you said something that sounded pretty catchy to 
me, ``Freeze the Footprint.'' Can you tell me more about that? 
Is that a policy or a statutory thing? Or how are you pursuing 
that?
    Mr. Mader. Congressman, as I mentioned, in 2012--and a lot 
of this was driven at the time by the decreasing budget, and I 
think agencies have recognized that there's value in addressing 
their real property program. And so we said in 2012--and it 
became effective in fiscal year 2013--it's like, okay, nobody--
these are DOD and civilian agencies--nobody will increase their 
footprint with office and warehouse space.
    And, as I mentioned----
    Mr. Massie. Let me ask just quickly, does that mean owned 
footprint or also leased?
    Mr. Mader. No, leased too.
    Mr. Massie. Okay.
    Mr. Mader. So leased too. So, basically, we overachieved. 
You know, not only did we freeze it, but we actually reduced it 
by the 24.7 million square feet.
    And then we said, look, that was a one-time event; what we 
need is a management strategy to go forward. We need agencies 
to manage these assets in an aggressive way. So, hence, the 
national strategy, which required each of the agencies to 
prepare this 5-year plan.
    Now, a component of that 5-year plan was, oh, and also, by 
the way, tell us how you're going to reduce your inventory of 
office and warehouse space. And we required that those plans be 
signed by the deputy secretaries of every Cabinet-level 
department.
    And, this past summer, we actually went out and did an on-
site review with each of those agencies to talk about, you 
know, how are you progressing against the goals that you set? 
What are the obstacles?
    So I think, Congressman, we've put in place a good 
management practice going forward. And, again, as I said, this 
is a rolling plan. So 2016 to 2020, great. Now we're getting 
2017 through 2021.
    Mr. Massie. It sounds so good to me, I'd like to put it in 
statute. And I think people would get creative, more creative, 
within the government when they needed to expand somewhere and 
there had to be some sort of conservation of mass, if you will, 
where, okay, before we can do this--and we need to do this, and 
we want to do this--we've got to find some property and solve 
the problems that have been articulated here, we've just got to 
bust through and solve these problems, whether it's legal or 
statutory requirements like Mr. Wise talked about--I know in my 
district there's some VA buildings that used to be housing for 
officers in the military a long time ago, but we've got all 
these historic requirements, lead abatement, asbestos 
abatement.
    Mr. Wise, what sort of statutory things could we do to bust 
through those problems? Because you end up with a situation 
where you've got real estate and it's valuable to the city or 
to developers there, but once you impose all the constraints on 
it, its value is below zero sometimes.
    Mr. Wise. Well, one of the things that I think has been an 
ongoing concern is that--and I think you kind of hint at that 
in your question--is that you get a lot of stakeholder issues 
that come into play when you talk about what to do with a 
conveyance or what to do with a certain property. And as I 
think Mr. Mica talked about and Mr. Mader also talked about, 
some of the recent legislation that has passed the House could, 
to some degree, I think, address some of these things.
    For example, you know, the Federal Asset Sale and Transfer 
Act that was passed this year, that act, one of the things that 
it does is it bundles properties together. So that helps 
mitigate the individual stakeholder interests that come from 
the local business or the local government or all these other 
groups that can come in--tribal groups, State and local 
groups--that can then end up really kind of jamming up the 
process or they'll get involved in public hearing court cases 
of one sort or another that can really slow things down.
    But if the properties are bundled together for a 
congressional decisionmaking, then that helps mitigate some of 
these stakeholder influences. And we think, from what we can 
see from the legislation, that would be a step forward in 
helping to help smooth out the process.
    Mr. Massie. So it may take an act of Congress, or an act of 
Congress could help----
    Mr. Wise. Well, there's been----
    Mr. Massie. --get it right?
    Mr. Wise. Yeah, there's been reform legislation going 
back--I mean, I've been working on these issues I guess for 
about 8 years----
    Mr. Massie. But, I mean, what I heard you say is, instead 
of sort of general reform, just start a list of properties and 
we, you know, write them down here in Congress and put them 
legislatively, okay, we're going to bundle this and----
    Mr. Wise. Yeah, well, the current framework is what it is. 
And so we see the results of that. And, to some degree, I 
think, as the chairman's pointed out, there's bipartisan 
support to look for reforming that process in order to make it 
more efficient. And there's been a number of bills--and we can 
go back to--I think you talked about this, Mr. Chairman, your 
bill, Mr. Denham and you, with H.R. 1734, back about 5 years 
ago, that had some of the similar characteristics of the 2016 
act.
    So I think there's definitely congressional recognition. 
Unfortunately, none of these reform bills have been able to get 
passed by both the House and the Senate. They've all passed the 
House, but they've gotten stuck in different places in the 
Senate for various reasons. And so that's been one impediment 
to trying to enact reforms in how the government should or 
could manage its real property portfolio.
    Mr. Massie. Mr. Chairman, would you indulge me for 1 more 
minute?
    Mr. Mica. Oh, take your time. We have plenty of time this 
morning.
    Mr. Massie. The final thing that I wanted to talk about--
this has been touched on, I think, by most folks here--is 
getting an accurate inventory of this is really important. I 
think if we get rid of the logjams and we set up the incentives 
the right way and then introduce this clearinghouse, this 
database, that the private sector will be farming that, you 
know, they'll be mining that list continuously.
    And that's why, Mr. Gelber, I was excited when you 
mentioned working on software to locate this inventory. You 
putting your constraints, almost like a search engine, it 
sounds like. That would be extremely valuable, particularly if 
the database is accurate, if the database lists the constraints 
on each of the properties, you know, in a consistent way across 
all of the various departments, and if it's available to the 
public.
    The first thing is I want for it to be available to 
Congressmen so each of us could go into that software and look 
and say, okay, here's something I need to go visit in my 
district, and then go talk to the local stakeholders, try and 
anticipate some of these court cases or whatever that may come 
up.
    But, anyway, can you tell us about that software and a 
little bit about the challenges in developing it and where 
you're at with it right now?
    Mr. Gelber. I would be happy to, sir.
    As with any database, one of the key issues is the accuracy 
of the data. And we are working with our colleagues across the 
executive branch to ensure that data is as accurate as 
possible. We have instituted several verification and 
validation tools that would identify anomalies in the data. 
Then we can go back to agencies and ask questions about a 
particular property or a particular set of properties that, for 
one reason or another, the numbers just don't seem to add up 
properly for other types of properties that are similar to that 
around the country.
    In addition, we're allowing agencies to use the data to 
analyze both their own inventory but compare their inventory to 
other Federal agencies to see if, in fact, their operating and 
maintenance costs are higher or lower than other agencies, if 
the utilization of a particular property is not as efficient as 
it could be, when a particular lease would end, and then, using 
that information, reach out to other Federal agencies in a 
particular community to say, ``We have a property that you 
might be interested in,'' or, as an agency, ``I'm looking for 
space in this community. You have a property that we may be 
interested in.''
    And so these tools, as you mentioned, are very similar to 
the traditional search types of tools that you see in the 
commercial marketplace that allow people to mine data and look 
at data to more effectively make decisions.
    Mr. Massie. I mean, if it's an open dataset, I can almost 
imagine a start-up that would write that app for you because of 
the incentives, if we had the incentives set up right. There 
are probably 10 start-ups dealing with, you know, finding and 
helping transfer property--if there's some financial incentive. 
Now, if they're just going to turn it over to the city or the 
county or local law enforcement, there may not be that 
financial incentive.
    But, anyway, I would love to be a beta-tester for that 
software if you'll let Congress beta-test that before you go 
live, understanding it's going to have a lot of glitches and 
stuff. I think it'd be a helpful tool for our staff to go in 
and try and anticipate some of these places.
    Mr. Gelber. That's something we're reviewing at this point. 
There are still questions about some of the data may not be 
appropriate to share with the public in general.
    Mr. Massie. Correct.
    Mr. Gelber. And as we go through this process of evaluating 
information and using information, we want to make sure that, 
as we share information, it's shared for good, if you will, but 
that actors who may not be as predisposed to--you know, hoping 
the government makes good decisions, but using that information 
for other purposes, we want to make sure that we don't share 
the data inappropriately at this point.
    So it's something we're reviewing and discussing within the 
executive branch as well as with Congress.
    Mr. Massie. All right. Well, thank you very much.
    I see the chairman was very generous. I'll yield back the 
time I don't have.
    Mr. Mica. I thank you, Mr. Massie. And we'll work with you 
on trying to get ahead of that IRS possible departure from your 
district, because I'm sure they have a huge footprint as far as 
square footage and space and then a huge economic impact.
    Mr. Massie. If I can talk to that, it's an enormous 
footprint. It's two city blocks, a single-story building, 
surrounded by private development, which is, you know, much 
taller buildings and parking.
    And, like I said, I want to reiterate we'd love for the IRS 
to stay. We'd love for them to find some other use for that 
building. But, sort of, my foreboding sense is that I could--
maybe one day I'll be in Congress as long as you, Mr. Chairman, 
and I'll be sitting in that seat asking some witnesses 20 years 
later why this single-story building's got vines on it. So I 
want to prevent----
    Mr. Mica. Well, again----
    Mr. Massie. --that dystopian future.
    Mr. Mica. --and just as some institutional advice for being 
here, if you see this coming and you can work with these 
agencies--and you had Mr. Mader talking about, well, we have 
need for placing Federal agencies in square footage, and it all 
doesn't have to be in Washington, D.C.
    Here is an example--I don't know your square footage--where 
you could work in anticipation of transition to another agency 
that doesn't have to be here. They want to spend an incredible 
amount of money on relocating all of Homeland Security in one 
location. It kind of reminds me of putting all the western 
fleet at Pearl Harbor. But some areas that don't need to be 
right in the capital center here may have a reuse capability.
    Again, I think you can sometimes get ahead of this, but you 
have to do an inventory because there are all these separate 
entities operating independently. Getting with GSA, finding out 
what the property needs are, OMB and maybe others, and 
identify, and maybe transitioning in a smoother fashion and 
utilizing some fairly valuable property that probably in your 
locale could be operated a lot less also as a square-footage 
cost, employment cost, the whole realm, for saving the Federal 
Government and saving your community.
    So just a little advice.
    I worked on the closure of a Veterans medical complex in my 
community. And we got them to keep part of it open, and then 
they had to do an assessment. But I wrote them 5 years ago, and 
I said, ``Hey, this is going to become empty when we open the 
new one. Let's have a plan.'' But I'll tell you, it always 
don't work that way. We are still repurposing, and we are into 
having already the new facility open, have a vacant 120-bed 
nursing home vacant, which I just turned over to the State of 
Florida from the Federal Government because they can open it 
and operate it faster.
    So you can get ahead of these things. I mean, again, I'm 
just trying to help you, Mr. Massie, and that is certainly a 
big responsibility in your district. So words of advice, 
whatever they're worth.
    Mr. Massie. Thank you, Mr. Chairman.
    Mr. Mica. And the same thing with Mr. DeSaulnier. He 
pointed out some things. He reminded me that we had been up to 
New York and looking at some projects, the old post office 
there, which is being converted now.
    And I thank you.
    He helped call attention. We had been up there many times 
for a post office that had been vacant for 30, 40 years, will 
now be a center of commerce, a station, at a fraction of the 
cost and with a public-private partnership. That property got 
turned over, I think, to the New York Development Authority, 
but still a lot of Federal responsibility in that project.
    So those are some of the things--Mr. DeSaulnier, did you 
have anything else?
    Mr. DeSaulnier. No, I just--that also is an example of one 
of the most valuable pieces of property in the United States 
sitting there being not used, underused, for 20 years, where 
there was a general interest in doing something positive about 
it. So, to the degree that we can get on top of those things--
and I know you're trying to--that would be beneficial.
    Mr. Mica. And this bill certainly will help. And you cited 
that legislation we've struggled with here, so hopefully we can 
get our Senate colleagues to act on that.
    Just two quick updates, Mr. Gelber. Okay, the Coast Guard 
we had located over here on the waterfront, and they moved into 
their new building, when was it, at the new location?
    Mr. Gelber. I believe they moved in in late 2014, possibly 
the beginning of 2015.
    Mr. Mica. So 2014, 2015?
    Mr. Gelber. That's my understanding. We can get the exact 
dates to your staff.
    Mr. Mica. And they're fully moved, right?
    Mr. Gelber. They're currently out of the locations that 
they were in previously, in the--I believe it's referred to as 
the Buzzard Point area of Washington, D.C.
    Mr. Mica. Yes. And what's the status of that property?
    Mr. Gelber. That property is a leased facility, so it's 
owned by a private entity. And so I don't know----
    Mr. Mica. Is it vacant?
    Mr. Gelber. I don't know, sir.
    Mr. Mica. I think it's vacant.
    Mr. Gelber. As I said, it's owned by a private entity and 
not in the inventory.
    Mr. Mica. I know, but I think you're paying a lease on it. 
Can you let us know the status of that?
    Mr. Gelber. We can, sir. I believe----
    Mr. Mica. Yeah. Here's an example of one coming vacant. I'm 
pretty sure it's been vacant since at least the beginning of 
last year, and I think we're still paying rent on it. Sometimes 
we don't plan these things very well.
    Then can you give, also for the committee and the staff, I 
want an update on that building. And then, let me see, we've 
got an--oh, what's the latest and greatest on the FBI building?
    Mr. Gelber. That's a procurement that's currently in 
process. Bids have been submitted to the government, and we're 
currently reviewing those bids, sir.
    Mr. Mica. Uh-huh. And have they narrowed it to one of the 
States? I think it was between Maryland and Virginia. Or is it 
still open competition?
    Mr. Gelber. The actual site selection will be part of the 
award of the contract, and that has not occurred yet.
    Mr. Mica. Okay. Maybe you could just give us that in 
writing too. I like to keep up with these things, and then we 
put a date on them, a response from the committee, and then we 
can come back, or whoever is in charge, and make certain that 
we're making progress and we've documented where we are and 
where we need to go.
    Well, there being--Mr. Massie, did you have anything else?
    Thank you.
    There being no further business before the subcommittee 
today, I would like to thank our witnesses for participating. I 
look forward to working with you. You have an important 
responsibility. We could save billions of taxpayer dollars. We 
can make idle Federal assets very productive and a good return 
for the taxpayer.
    So, with that, there being no further business, this 
subcommittee hearing is adjourned. Thank you.
    [Whereupon, at 10:50 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
               



                                 <all>
</pre></body></html>
